App. 1
IN THE

Arizona Court of Appeals
Division Two
Bobby Wilson,
Plaintiff!Appellant,
u.
Phoenix Newspapers, Inc.; Gannett Co., Inc.;
Hugo Publishing Co., Inc.; Dustin Gardiner;
Alison Steinbach; Stan Stamper; and Greg Burton,
Defendants/Appellees.
No. 2 CA-CV 2020-0047
Filed February 10, 2021
This Decision Does Not Create Legal Precedent
And May Not Be Cited Except As Authorized
By Applicable Rules. Not for Publication
See Ariz. R. Sup. Ct. 111(c)(1);
Ariz. R. Civ. App. P. 28(a)(1), (f).
Appeal from the Superior Court in Pima County
No. C20192032
The Honorable Brenden J. Griffin, Judge
AFFIRMED
COUNSEL
Bobby Wilson, Green Valley
In Propria Persona

App. 2
Ballard Spahr LLP, Phoenix
By David J. Bodney and Daniel A. Arellano
Counsel for Defendants!Appellees
MEMORANDUM DECISION
Presiding Judge Eppich authored the decision of the
Court, in which Chief Judge Vasquez and Judge Brearcliffe concurred.
EPPICH, Presiding Judge:
HI Bobby Wilson, a former candidate for Arizona
State Senate, appeals from the trial court’s grant of
summary judgment in favor of Phoenix Newspapers,
Inc. (PM), the publisher of The Arizona Republic and
its corresponding website azcentral.com; its parent
company, Gannett Co., Inc.; Hugo Publishing Co., Inc.,
the publisher of The Hugo News and former publisher
of the Choctaw County Weekly; and select journalists,
as well as an owner and an editor (“Defendants”).1
Wilson argues the trial court erred in denying his mo­
tion to strike Defendants’ exhibits and granting sum­
mary judgment in favor of Defendants on his claims of
defamation, false light invasion of privacy, and inten­
tional infliction of emotional distress. For the following
reasons, we affirm.

1 Although not all individual defendants were involved in
every allegation, we refer to “Defendants” collectively.

App. 3
Factual and Procedural Background
H2 The following facts are undisputed. In 2018,
Bobby Wilson was campaigning for a seat in the Ari­
zona State Senate. In July, at a candidate’s forum on
gun-control legislation, he revealed he once shot and
killed someone in self-defense. A reporter employed
by PNI, Alison Steinbach, contacted Wilson and inter­
viewed him to follow up on the statements he had
made at the debate. This action was brought after The
Arizona Republic published three articles after Steinbach’s interview.
Article One: References to 1963 Murder Confession
H3 On July 17, 2018, The Arizona Republic published
an article written by Steinbach titled, “Senate hopeful
shot mom in 1963.”2 The article reported that Wilson
had admitted shooting someone in self-defense at a
candidate’s forum to illustrate that having “a good guy
there with a gun” was more effective than gun-control
legislation.
H4 The article noted that court records and contem­
poraneous newspaper articles “suggested] there may
be more to the story than Wilson’s account.” It men­
tioned that” [t]hose records show he was charged with
2 A similar article was posted at azcentral.com - the online
version of The Arizona Republic - the day before. The online ver­
sion was titled “Arizona Senate candidate who killed his mother
supports ‘good guys’ with guns.” The only material difference
between the two versions was that the online article included
images that the print edition did not.

App. 4
the murder of his mother and sister, and soon after his
arrest he confessed to those charges,” and “later re­
canted his confession and claimed he had amnesia
about the events of the night in question.”
H5 The article then described Wilson’s version of the
events as described by him in the interview with Steinbach and mentioned that he wrote a memoir in 2010
that “[told] his version of the story.” It reported Wilson
had claimed that his mother had repeatedly shot at
him, that his mother hit his sister in the head with a
rifle butt, that bullets from his mother’s shooting rico­
cheted off containers of gasoline in his room, that he
shot his mother in self-defense, and that the house
exploded when he turned a light switch on. He further
claimed that all charges against him had been dis­
missed after he faced two “inconclusive” trials and that
the prosecutor “announced that the state never had a
solid case against him and was wrong all along.”
H 6 The article then reported that contemporaneous
court records and a local newspaper “differed] signifi­
cantly” from Wilson’s version of events. It referenced
1963 articles in the Choctaw County Weekly - an Okla­
homa publication that had compiled articles from mul­
tiple area newspapers - and revealed that one of those
articles “reported that Wilson had confessed [to] mur­
dering his mother and sister.”3 The article reported the
3 The online version of the article published by The Arizona
Republic had included an image of a 1963 Choctaw County Weekly
article with the headline “Bobby Wilson Confesses He Murdered
His Mother and Sister Last Thursday.” The body of the article is
not clearly legible in the version reported online.

App. 5
1963 article said that Wilson had led officers to where
he buried the rifle and that after “prompting by his
[former] boss,” he had confessed to shooting his mother,
crushing his sister’s skull with his rifle butt, placing
the bodies on the bed, pouring gas around the house,
and lighting a match.
H7 The article stated that court records showed Wil­
son filed a motion arguing he did not have the “mental
[] capacity to make a rational defense” and the court
had “suspended” Wilson’s trial after a jury found he
suffered from amnesia. It reported that the murder
charges were dismissed after Wilson moved to dismiss
the charges on speedy trial grounds.
Article Two: Threatening to Kill HOA President
H8 On August 15, 2018, The Arizona Republic pub­
lished another article about Wilson, written by re­
porter Dustin Gardiner, and titled, “HOA leader:
Candidate said he’d kill me.”4 This article referenced
Steinbach’s July 2018 article and recounted the 1963
newspaper article that had indicated Wilson confessed
to killing his mother and sister. It then reported that
Wilson’s neighbors at a gated beach community in
Mexico said he had broken down a door and threatened
to harm Dan Dimovski, the president of the home­
owner’s association (HOA). The article indicated that
4 Two days earlier, a similar version of this article was
published online at azcentral.com. The online version was titled
“Neighbors: Arizona Senate candidate who killed his mother
threatened HOA president in 2016.”

App. 6
Wilson had acknowledged damaging a door but denied
threatening anyone that day.
^19 The article reported that Dimovski had contacted
The Arizona Republic after reading its previous article
describing Wilson’s gun comments and the death of
his mother. It reported that Dimovski had said that
“Wilson [had] threatened to kill him,” two years prior,
at a HOA meeting where Wilson’s wife was in attend­
ance. According to the article, Dimovski said ‘"he [could
not] recount Wilson’s exact words, given the incident
came as a complete shock.” But, Dimovski indicated
that Wilson made statements similar to “I know who
you are,” “You know what I could do to you?” and “I’ll
take care of you.” Dimovski also said, “Knowing what I
know now, I think it was a threat to kill me, especially
the fact that he has exposed his position on what he
thinks of weapons.. ..” The article also reported that
the vice president of the HOA, Bruce Turner, was there
and had confirmed Wilson “made threatening state­
ments about harming Dimovski” It reported that
Dimovski and Turner had called the Mexican police
after seeing that a HOA office door had been kicked in
but that the HOA later agreed to not press charges af­
ter Wilson and his wife paid to fix the door.
H10 The article noted Wilson had acknowledged be­
ing upset and confronting Dimovski over an “illegal
meeting” but he had claimed “that he never made any
physical threats” and only acted in that manner be­
cause he was concerned for his wife’s well-being. The
article reported that Wilson and his wife had claimed
that Dimovski was lying and that there was conflict

App. 7
between the HOA board and some of its residents re­
garding the HOA’s alleged mismanagement of the
property.
Wilson’s Retraction Demand
Ull After both articles were published, Wilson sent
a retraction demand to the editor of The Arizona Re­
public, claiming that the two articles falsely reported
that Wilson had confessed to murdering his mother
and sister “by re-publishing old articles” that were “un­
true and libelous.” In the demand, Wilson claimed he
had given a reporter a copy of his book which “was the
only true account of what caused the deaths of [his]
mother and sister.” Wilson stated that the 1963 news­
paper editor who had published accounts of Wilson’s
confession and the local sheriff had “admitted under
oath at trial that there had never been any written or
oral confession of any murders or arson by [him].” The
Arizona Republic responded to Wilson and informed
him that it would not retract the articles, in part, be­
cause he had not provided any evidence to support his
assertion that these two witnesses had admitted under
oath that Wilson had never confessed. It encouraged
him to provide any evidence to support his position.
Wilson did not respond or provide further evidence.
Article Three: References to Material in First
Two Articles
1112 On February 15, 2019, The Arizona Republic
published a third article about Wilson written by

App. 8
Dustin Gardiner. This article was posted on azcentral.com and, among other things, recalled and dis­
cussed the contents of the two previous articles.
Wilson’s Lawsuit
H13 In April 2019, Wilson filed this lawsuit alleging
defamation, intentional infliction of emotional distress,
and false light invasion of privacy against seven de­
fendants: PNI, which distributes The Arizona Republic
and operates azcentral.com; Gannett Co., Inc., the par­
ent company of PM; Alison Steinbach and Dustin Gar­
diner, reporters employed by PNI; Greg Burton,
executive editor of The Arizona Republic; Hugo Pub­
lishing Co., Inc., which publishes The Hugo News (for­
merly The Hugo Daily News) and formerly published
the Choctaw County Weekly; and Stan Stamper, the
president of Hugo Publishing Co., Inc.
H14 Wilson alleged that the articles published by
The Arizona Republic falsely reported that he had con­
fessed to murdering his mother and sister and that he
had threatened to kill Dimovski. Defendants moved
for summary judgment, arguing that Wilson could not
prove actual malice by clear and convincing evidence
nor falsity. Wilson cross-moved for partial summary
judgment. In that same filing, he also moved to strike
some of Defendants’ exhibits. The trial court denied
Wilson’s motions and granted summary judgment in
favor of Defendants because Wilson had not produced
sufficient evidence for a jury to find by clear and con­
vincing evidence that Defendants acted with actual

App. 9
malice nor was there sufficient evidence of outrageous
conduct to warrant an intentional infliction of emo­
tional distress claim.5 After the court denied Wilson’s
motion for a new trial, Wilson timely filed this appeal.
We have jurisdiction pursuant to A.R.S. § 122101(A)(5)(a).
Motion to Strike Exhibits
II15 Wilson argues the trial court committed reversi­
ble error by refusing to strike some of Defendants ex­
hibits offered in support of their motion for summary
judgment. Specifically, he argues that Gardiner’s dec­
larations should have been excluded because they
“were not signed and dated by the supposed witness.”6
He also argues that Stan Stamper’s declaration should
have been stricken because Stamper falsely stated
that exhibits one through six came from his archives,
when he was not actually the source of the items and
had no original copy in his possession before this
5 The trial court observed that it did not “think [Wilson] re­
sponded to the defendant’s statement of facts properly.” Defen­
dants contend that in doing so, the court “ruled that Wilson’s
failure to comply with Rule 56 was an independent basis on which
to grant relief” in their favor. However, the court indicated it
“went beyond that” and decided the issues on their merits.
6 On appeal, Wilson also argues that Gardiner’s supple­
mental declaration should have been stricken because it was un­
sworn and that Stamper’s declaration should have been stricken
due to a lack of competency and personal knowledge. Because
Wilson did not adequately raise these issues below, he has waived
them on appeal. Sobol v. Marsh, 212 Ariz. 301, <{[ 7 (App. 2006)
(“[A] party cannot argue on appeal legal issues and arguments
that have not been specifically presented to the trial court.”).

App. 10
lawsuit was filed. Wilson further argued that
Stamper’s declaration should have been stricken be­
cause it referenced several exhibits that were hearsay
and “did not come within any recognized exception to
the Arizona hearsay evidence rules.”7
HI6 We review a trial court’s ruling on evidentiary
matters for a “clear abuse of discretion” and “will not
reverse unless unfair prejudice resulted or the court
incorrectly applied the law.” Larsen v. Decker, 196 Ariz.
239, H 6 (App. 2000) (citation omitted). “We will affirm
the trial court’s decision if it is correct for any reason,
even if that reason was not considered by the trial
court.” Glaze v. Marcus, 151 Ariz. 538, 540 (App.
1986).
Gardiner’s Declarations
H17 Defendants submitted Dustin Gardiner’s decla­
ration in support of their motion for summary judg­
ment. Wilson filed a motion alleging, among other
things, that Gardiner’s declaration should be stricken
because the signature and date “were produced by ar­
tificial means,” thereby not complying with Rule 80(c),
7 Wilson argues the trial court erred in refusing to issue
sanctions as a result of the allegedly invalid affidavits under Rule
56(h), Ariz. R. Civ. P. However, that rule only indicates that a
court may impose sanctions on a party if an “affidavit is submitted
in bad faith or solely for delay.” Id. Because Wilson does not ex­
plain why the affidavits fell under these categories or meaning­
fully develop his argument on appeal, we find that issue waived.
Polanco v. Indus. Comm’n, 214 Ariz. 489, n.2 (App. 2007) (insuf­
ficient argument waives review of claim).

App. 11
Ariz. R. Civ. P. Defendants countered that the declara­
tion was electronically dated and signed by Gardiner
and complied with Rule 80(c) because the rule does not
prohibit electronic signatures.
SI 18 Defendants also submitted Gardiner’s supple­
mental declaration, in support of their motion for sum­
mary judgment. In response, Wilson argued that this
supplemental declaration was inadmissible for the
same reason as Gardiner’s first declaration. The trial
court denied his motion to strike Gardiner’s declara­
tions without explanation.
SI 19 Unsworn declarations and affidavits have “the
same force and effect” as sworn declarations and affi­
davits if they are “(1) signed by the person as true
under penalty of perjury; (2) dated; and (3) in sub­
stantially the [correct] form.” Ariz. R. Civ. P. 80(c).
Nothing in Rule 80 requires handwritten signatures or
prohibits electronic signatures. Therefore, Wilson has
not established that the trial court clearly abused its
discretion by refusing to strike Gardiner’s declarations
on these grounds.
Stamper’s Declaration
H20 Defendants also submitted Stan Stamper’s
declaration in support of their motion for summary
judgment. In the declaration, Stamper stated that “as
president and publisher of The Hugo News ” formerly
known as The Hugo Daily News, he had access to the
company’s publishing archives and he attached exhib­
its one through six - copies of six articles that

App. 12
appeared in The Hugo Daily News reporting on Wil­
son’s murder case. Stamper also stated he had re­
searched other archival materials discussing Wilson’s
case after learning of the lawsuit. These materials
were attached as exhibits seven through eleven and
included: two articles from national magazines, an
article from another newspaper, a purported copy of
Wilson’s transcribed confession to the Oklahoma State
Bureau of Investigation (OSBI) where Wilson said, “I
don’t know [who shot my mother]. I was the only one
in the house alive so I guess it must have been me since
I was the only one in the house alive,” and an email
from OSBI demonstrating how Stamper had obtained
a copy of the confession.
1121 Stamper indicated he had “forwarded archival
materials from Hugo publications to [The Arizona Re­
public], but [he] did not alter or add to the original pub­
lications.” He indicated he did not have “knowledge
that anything in the aforementioned archival materi­
als was false, nor did [he] ever entertain serious doubts
about their truth.” He also indicated that to his
knowledge, Wilson “has never served a retraction de­
mand on Hugo over any statement that appeared in
any of the articles it published concerning [Wilson’s]
role in the . . . murders of his mother and sister in
1963, nor had Wilson ever previously sued Hugo re­
garding anything that ever appeared in one of its pub­
lications concerning his role in those 1963 murders.”
H22 Wilson argued that the eleven exhibits attached
to Stamper’s declaration were inadmissible hearsay.
He also argued that Stamper was dishonest because he

App. 13
falsely claimed he obtained exhibits one through six
from his own archives, when they actually came from
the Oklahoma Historical Society, as evidenced by the
imprint at the top of the exhibits. Defendants argued
exhibits one through nine were all newspaper and
magazine articles and were self-authenticating under
Rule 902(6), Ariz. R. Evid., and fell under the Rule
803(16), Ariz. R. Evid., hearsay exception. Defendants
also argued that exhibits ten and eleven were admissi­
ble. They argued that exhibit ten was not hearsay un­
der Rule 801(c)(2), Ariz. R. Evid., because it was not
being introduced “to prove the truth of the matter as­
serted in the statement.” They further argued both ex­
hibits were sufficiently authenticated under Rule
901(b)(7)(B), Ariz. R. Evid., and if they were hearsay,
they fell under the Rule 803(16) and Rule 803(8), Ariz.
R. Evid., hearsay exceptions. The trial court denied
Wilson’s motion to strike these exhibits without expla­
nation.
H23 An affidavit may be used to support a motion for
summary judgment if it, among other things, “set[s]
out facts that would be admissible in evidence.” Ariz.
R. Civ. R 56(c)(5). Hearsay is an out-of-court statement
offered to prove the truth of the matter asserted. Ariz.
R. Evid. 801(c). Hearsay is inadmissible unless an ex­
ception applies. Ariz. R. Evid. 802, 803, 804. The an­
cient document hearsay exception provides, “[a]
statement in a document that was prepared before
January 1, 1998, and whose authenticity is estab­
lished” is not excludable on hearsay grounds “regard­
less of whether the declarant is available as a witness.”

i

App. 14
Ariz. R. Evid. 803(16). Rule 902(6) provides that
“[plrinted material purporting to be a newspaper or pe­
riodical” is self-authenticating evidence which “re­
quire [si no extrinsic evidence of authenticity in order
to be admitted.”
H24 There is also a hearsay exception for public rec­
ords. Ariz. R. Evid. 803(8). A statement of a public office
qualifies for this exception if it sets out, “in a civil case
. . . factual findings from a legally authorized investi­
gation” and “the opponent does not show that the
source of information or other circumstances indicate
a lack of trustworthiness.” Ariz. R. Evid. 803(8)(A)(iii),
(B). Evidence that “a purported public record or state­
ment is from the office where items of this kind are
kept” satisfies the authentication requirement. Ariz. R.
Evid. 901(b)(7)(B).
H25 Here, the parties agree that exhibits one
through nine are hearsay. But as Defendants point out,
these exhibits are all magazine periodicals or newspa­
per articles published in the 1960s so they are self­
authenticating under Rule 902(6) and admissible un­
der the Rule 803(16) exception to the prohibition on
hearsay. Therefore, the trial court did not abuse its
discretion in considering these exhibits for summary
judgment purposes.
1126 Wilson asserts that exhibits ten and eleven are
hearsay because they involve statements offered to
prove the truth of the matter asserted. However, even
assuming that these exhibits are hearsay and that
they were improperly considered by the court, reversal

App. 15
on these grounds is unwarranted because it was harm­
less error. See Creach v. Angulo, 189 Ariz. 212, 214-15
(1997) (“To justify the reversal of a case, there must not
only be error, but the error must have been prejudicial
to the substantial rights of the party.”); see also Ariz.
Const, art. VI, § 27 (“No cause shall be reversed for
technical error in pleadings or proceedings when upon
the whole case it shall appear that substantial justice
has been done.”).
H27 These two exhibits were obtained by Defendants
after the lawsuit began and were seemingly offered to
prove a confession occurred. However, the court
granted Defendants’ motion for summary judgment
based on Wilson’s failure to produce sufficient evidence
of actual malice - a standard that is only concerned
with a “defendant’s state of mind at the time of publi­
cation ”Kahl v. Bureau ofNaflAffs., Inc., 856 F.3d 106,
118 (D.C. Cir. 2017).8 Because these two exhibits
were obtained after the purported defamatory mate­
rial was published, they have no bearing on “[Dlefendants’ state of mind at the time of publication.” Id.
Therefore, there is no reasonable probability that the
outcome of the case might have been different if these
exhibits were not considered because these items were
irrelevant to the actual malice standard. See United
Cal. Bank v. Prudential Ins. Co. ofAm., 140 Ariz. 238,
295 (App. 1983) (harmless error if no reasonable
8 Although the trial court appeared to believe, at the time of
its ruling, that the actual malice standard did not apply to inten­
tional infliction of emotional distress claims, as discussed below,
this standard applies equally to all of the claims in this case.

App. 16
probability result might have been different if error did
not occur).
H28 Lastly, Wilson argues the Stamper declaration
should have been stricken because Stamper falsely
stated exhibits one through six came from his archives
when that was actually not the source of the items.
Even if this were true, Wilson fails to demonstrate how
this goes to admissibility of the evidence rather than
its weight. As Wilson acknowledges, in a motion for
summary judgment the trial court may not weigh the
evidence because the court’s function is “merely to de­
termine whether there is evidence that could reasona­
bly be believed in determining whether” a genuine
dispute of material fact exists for trial. Orme Sch. v.
Reeves, 166 Ariz. 301, 307 (1990); see also Ariz. R. Civ.
P. 56(a). In sum, the trial court did not abuse its discre­
tion in denying Wilson’s motion to strike Defendants
exhibits.
Summary Judgment
1129 Wilson argues the trial court erred in granting
Defendants’ motion for summary judgment because he
created a genuine dispute that Defendants acted with
actual malice when they republished and referenced
the confession to murder from the 1963 article on three
separate occasions. He also contends he created a gen­
uine dispute that Defendants acted with actual malice
when they published “ ‘threat to kill’ language” because
there is no proof he ever said those words to Dimovski.

App. 17
1130 “We review de novo a trial court’s grant of sum­
mary judgment and view the evidence in the light most
favorable to the party against whom summary judg­
ment was entered.” Simon u. Safeway, Inc., 217 Ariz.
330, H 13 (App. 2007). Summary judgment is properly
granted “if the moving party shows that there is no
genuine dispute as to any material fact and the moving
party is entitled to judgment as a matter of law.” Ariz.
R. Civ. P. 56(a). Therefore, a summary judgment motion
“should be granted if the facts produced in support of
the claim . . . have so little probative value, given the
quantum of evidence required, that reasonable people
could not agree with the conclusion advanced by the
proponent of the claim.” Noriega v. Town of Miami, 243
Ariz. 320, H 12 (App. 2017) (quoting Reeves, 166 Ariz.
at 309).
H31 The First Amendment “extend[s] journalists a
wider margin of error in reporting about public figures
than in reporting about private figures.” Scottsdale
PubVgy Inc. v. Superior Court (Romano), 159 Ariz. 72,
75 (App. 1988). A public figure “seeking damages from
media defendants for publications of defamatory ma­
terial on matters of public concern [can] only recover
on clear and convincing evidence of ‘actual malice.”
Dombey v. Phx. Newspapers, Inc., 150 Ariz. 476,480
(1986) (quotingN.Y. Times Co. v. Sullivan, 376 U.S. 254,
280 (1964)).9 “The question whether the evidence in the
9 The actual malice standard is a constitutional rule that also
applies to false light invasion of privacy and intentional infliction
of emotional distress. See Hustler Mag., Inc. u. Falwell, 485 U.S.
46, 56 (1988) (intentional infliction of emotional distress);

App. 18
record ... is sufficient to support a finding of actual
malice is a question of law.” Harte-Hanks Commons,
Inc. v. Connaughton, 491 U.S. 657, 685 (1989). “[T]he
appropriate summary judgment question [is] whether
the evidence in the record could support a reasonable
jury finding .. . that the plaintiff has shown actual
malice by clear and convincing evidence.” Dombey, 150
Ariz. at 486 (quoting Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 255-56 (1986)).
1132 A plaintiff demonstrates actual malice by pro­
ducing “evidence that defendants] published either
knowing that the article was false and defamatory or
that it published with ‘reckless disregard of whether it
was false or not *” Id. at 487 (quoting Sullivan, 376 U.S.
at 280).10 To show reckless disregard, a plaintiff must
“present ‘significant probative evidence’ which would
support a finding that defendant published even
though it entertained a subjective doubt of truth.” Id.
at 488 (quoting Anderson, 477 U.S. at 256); see also
St. Arnant v. Thompson, 390 U.S. 727, 731 (1968)
(“There must be sufficient evidence to permit the
Godbehere u. Phx. Newspapers, Inc., 162 Ariz. 335, 342-43 (1989)
(invasion of privacy). Arizona courts are required to follow it be­
cause this rule is based on the Supreme Court’s interpretation of
the First Amendment. See McLaughlin v. Jones, 243 Ariz. 29,
f 25 (2017) (“The United States Supreme Court’s interpretation
of the Constitution is binding on state court judges, just as on
other state officers.”).
10 “
To be defamatory, a publication must be false and must
bring the defamed person into disrepute, contempt, or ridicule, or
must impeach plaintiff’s honesty, integrity, virtue, or reputa­
tion.” Godbehere, 162 Ariz. at 341.

App. 19
conclusion that the defendant in fact entertained seri­
ous doubts as to the truth of his publication.”). When
the defendants deny knowing their material was false
or that they doubted its truth, “a public figure must
rely on circumstantial evidence to prove his case.”
Dombey, 150 Ariz. at 487 (quoting Hunt v. Liberty
Lobby, 720 F.2d 631, 643 (11th Cir. 1983)).
H33 Here, it is undisputed that Wilson was a public
figure when the articles at issue were published.11 Al­
though Wilson agrees that the actual malice standard
is binding precedent on this court, he nevertheless
urges us to adopt a new standard We decline to do so.
See id. at 481; State v. Smyers, 207 Ariz. 314, n.4 (2004)
(“The courts of this state are bound by the decisions of
[its supreme court] and do not have the authority to
modify or disregard [that] court’s rulings.”).
H34 Wilson has not presented any evidence that De­
fendants admitted publishing the articles knowing
they contained false and defamatory material. There­
fore, we need only determine whether Wilson produced
significant probative evidence that Defendants enter­
tained a subjective doubt of truth of the articles at
the time of publishing, thereby proving Defendants
published with reckless disregard for the truth. See

11 Wilson argues for the first time on appeal, that he was no
longer a public figure when the third article was published, pre­
sumably because he was no longer running for Arizona state sen­
ate at that time. However, Wilson has waived this argument on
appeal by failing to raise it below. Sobol, 212 Ariz. 301, % 7.

App. 20
Dombey, 150 Ariz. at 487. For the reasons that follow,
we conclude that he did not.12
References to 1963 Murder Confession
H35 Wilson argues he “clearly produced proof of De­
fendants’ commission of constitutional malice.” Wil­
son’s evidence of actual malice at summary judgment
included (1) his assertion that he gave Steinbach a
copy of his memoir which he contends proves the con­
fession to murder referenced in the 1963 article never
occurred because the publisher of the article - Jack
Stamper - and a local sheriff admitted at trial that
Wilson did not confess to them, (2) the lack of a convic­
tion, (3) his former supervisor - RD. Payne - claimed
that Wilson never confessed to him, (4) Defendants’ vi­
olation of “the model code of journalism conduct” and
failure to adequately investigate, and (5) Defendants’
refusal to retract the articles. But, even taken together,
these claims do not provide significant probative evi­
dence for a jury to conclude by clear and convincing
evidence that Defendants entertained a subjective
doubt of truth.
H36 Wilson argues Defendants should have had seri­
ous doubts that the 1963 article - reporting he had
confessed to murder - was true because during his in­
terview with The Arizona Republic, he told Steinbach
12 Wilson’s failure to provide sufficient evidence of actual
malice defeats all of his claims and we therefore do not address
the parties’ arguments pertaining to whether Wilson produced
sufficient evidence of the other elements of his claims.

App. 21
that the 1963 article was false, that the publisher
made it up, that no confession ever occurred, and he
warned her that if The Arizona Republic republished
the article he would sue. Wilson claims he gave a copy
of his memoir to Steinbach to prove this.13 In opposi­
tion to Defendants’ motion for summary judgment,
Wilson offered a few selected pages from his memoir as
evidence. The pages from Wilson’s memoir suggested
that Wilson had never confessed to murder, indicated
that Jack Stamper had fabricated Wilson’s statement
and falsely claimed he confessed, and that a local sher­
iff had admitted at trial that Wilson never confessed
to him personally. However, even if we assume Defen­
dants read this memoir before publishing the articles
at issue, it was written by Wilson himself, almost fifty
years after the deaths of his mother and sister, and the
few selected pages contained no disinterested citations
or references to objective sources such as court records
or transcripts.
H37 Wilson also did not offer any evidence that he
demanded a retraction of the 1963 article that could
have alerted Defendants to any purported falsity. The
13 Although Steinbach disputes receiving a book from Wilson,
we draw the inference that this occurred because we view the
facts in favor of the “party against whom summary judgment was
entered.” Simon, 21V Ariz. 330, f 13. To the extent Wilson sug­
gests that Defendants published with actual malice because the
1963 article was created and obtained from hostile opponents of
his or was published for monetary gain, we reject that argument.
See Heuisler v. Phx. Newspapers, Inc., 168 Ariz. 278, 282 (App.
1991) (“Actual malice, however, is not established through a
showing of bad motives or personal ill-will.”).

App. 22
pages of the memoir offered as evidence merely nar­
rate Wilson’s recollection of the events. As such, Wil­
son’s self-serving uncorroborated denials were not
enough to raise serious doubts about the veracity of
the 1963 reference to a confession. See Harte-Hanks
Cominc’ns, Inc., 491 U.S. at n.37 (“[T]he press need not
accept ‘denials, however vehement; such denials are so
commonplace in the world of polemical charge and
countercharge that, in themselves, they hardly alert
the conscientious reporter to the likelihood of error, >»
(quoting Edwards v. Natl Audubon Soc’y, Inc., 556 F.2d
113, 121 (1977))); Lohrenz u. Donnelly, 350 F.3d 1272,
1285 (D.C. Cir. 2003) (“[U]nlike evidence that could be
readily verified, ja subject’s] denials did not give [de­
fendant] ‘obvious reasons’ to doubt the veracity of her
publication.”) (citations omitted).
H38 Next, Wilson argues Defendants should have
had serious doubts that the 1963 article was true be­
cause all criminal charges were dismissed and Steinbach admitted she examined court records showing a
jury had found Wilson lacked the mental capacity to
present a defense due to amnesia14 before they pub­
lished the article. Wilson contends that due to the am­
nesia, a confession “was very unlikely” and he “could
not have made a valid confession of a double murder
under those circumstances.” However, a finding of am­
nesia and the fact that a confession may have been in­
admissible does not mean that a confession never
occurred. See Watkins v. Sowders, 449 U.S. 341, 347
14 Wilson has arguably waived this argument by failing to
raise it below. See Sobol, 212 Ariz. 301, f 7.

App. 23
(1981) (an involuntary confession may be “inadmissi­
ble even if it is true”). Similarly, the lack of a conviction
in this case does not mean that a confession did not
occur. Wilson did not produce evidence to show that his
criminal charges were dismissed at the prosecutor’s
request, as he contends, rather than on speedy trial
grounds.15 Therefore, we conclude this evidence was
not enough to raise serious doubts about the veracity
of the 1963 article.
H39 Wilson contends R.D. Payne’s declaration was
evidence that defendants should have had serious
doubts about the truthfulness of the 1963 article be­
cause Payne stated in his declaration that Wilson
never confessed to him that he murdered anyone and
Payne never told any reporter of such a confession.16
However, this declaration was written after publica­
tion of the articles and Wilson offered no evidence sug­
gesting Defendants knew of Payne’s statements before
publication. See Bose Corp. v. Consumers Union, 466
U.S. 485, 498 (1984) (independent evidence needed to
15 The public records relied on by Steinbach, and uncontested
by Wilson, established that a jury found Wilson suffered from am­
nesia, the court stayed his trial, and he filed a motion to dismiss
his case based on a claim that his right to a speedy trial had been
denied. Neither party introduced an order showing why the case
was dismissed and to the extent that Wilson claims on appeal that
his first trial ended in a hung jury, he offered no evidence to sup­
port this, other than his own self-serving statements.
16 To the extent Wilson claims Payne’s declaration states
that the publisher of the 1963 article - Jack Stamper - admitted
under oath at two trials that he lied about a confession, the record
does not support this. Payne’s declaration makes no reference to
Jack Stamper recanting at trial.

App. 24
establish defendant “realized the inaccuracy of the
statement, or entertained serious doubts about its
truthfulness, at the time of publication”); Kahl, 856
F.3d at 118 (“The actual malice inquiry focuses on the
defendant’s state of mind at the time of publication.”).
1140 Wilson argues Defendants failed to conduct a
complete investigation and violated journalistic stan­
dards. However, Steinbach indicated that she inter­
viewed sources, relied on court records, and relied on
contemporaneous news articles. Even if we assume
that Steinbach violated journalistic standards by not
contacting Payne before publishing, the failure to do so
would amount to negligence at most, not a reckless
disregard for truth because “[alctual malice is subjec­
tive and not based on journalistic standards or their
breach.” See Domhey, 150 Ariz. at 488-89 (“failure to
investigate, sloppy investigation, poor reporting prac­
tice and the like are not per se actual malice”); Scotts­
dale PubVg, Inc., 159 Ariz. at 86 (Actual malice is
subjective and “is not measured by whether a reason­
ably prudent man would have published, or would
have investigated before publishing.” (quoting St.
Amant, 390 U.S. at 731)); see also Masson v. New Yorker
Mag., Inc., 501 U.S. 496, 510 (1991) (mere negligence
insufficient to meet actual malice standard).
K41 Moreover, the fact that Defendants gave Wil­
son’s version of events and told readers that Wilson’s
murder charges were dismissed, greatly undermines
Wilson’s claim of actual malice. See Tavoulareas v.
Piro, 817 F.2d 762, n.44 (D.C. Cir. 1987) (including sub­
ject’s denials in report constitutes “an even-handed

r

App. 25
approach that scarcely bespeaks the presence of actual
malice”); Biro v. Conde Nast, 963 F. Supp. 2d 255, 283
(S.D.N.Y. 2013) (including plaintiff’s denials “makes it
even less plausible that [defendants] were behaving
with actual malice”), aff’d, 807 F.3d 541 (2d Cir. 2015);
Suchomel u. Suburban Life Newspapers, Inc., 228
N.E.2d 172,176 (Ill. App. Ct. 1967) (no actual malice
when reporting “went to great lengths to set forth both
sides of the controversy” and “specifically reports and
quotes plaintiff’s denials of the charges”).
A42 Lastly, Wilson argues Defendants should have
had serious doubts about the truth of the 1963 article
because he sent them a retraction demand. However,
Wilson ignores the fact that his demand came after the
first two articles were already published so Defendants
could not have known about the assertions in his de­
mand at the time of publishing. Although retraction
demands can be probative of actual malice in some
circumstances, and this demand could have caused
Defendants to have serious doubts before publishing
the third article, it was not probative in this case be­
cause the purported inaccuracies were not substanti­
ated by any objective evidence - only Wilson’s selfserving statements. See Dombey, 150 Ariz. at 489 (re­
traction demands may indicate malice when plaintiff
cites specific inaccuracies and provides the facts to re­
but them); Montgomery v. Risen, 197 F. Supp. 3d 219,
263 (D.D.C. 2016) (“[D]enial[s] only serve to buttress a
case for actual malice when there is something in the
content of the denial or supporting evidence produced

App. 26
in conjunction with the denial that carries a doubt-in­
ducing quality.”).
^143 In sum, the record supports the conclusion that
Wilson has not met his burden of producing significant
probative evidence for a jury to conclude by clear and
convincing evidence that Defendants entertained a
subjective doubt of truth about the articles’ references
to the 1963 article reporting that Wilson confessed to
murder.
Threatening to Kill HOA President
H44 Wilson argues that the trial court erred in grant­
ing summary judgment for Defendants because he in­
troduced sufficient evidence that Defendants acted
with actual malice when they published the “‘threat to
kill* language” because there is no proof he ever said
those words to Dimovski.17 The only portion of the Au­
gust 2018 article that contains the words “threat to
kill” is a statement whereby Defendants reported that
Dimovski said, “Knowing what I know now, I think it
was a threat to kill me, especially the fact that he has
exposed his position on what he thinks of weap­
ons. . .. ”18
17 We do not address Wilson’s argument that he was entitled
to partial summary judgment because he essentially concedes on
appeal that if he had presented sufficient evidence of actual mal­
ice it should be up to a jury to decide his case.
18 The headline of this article was “HOA leader: Candidate
said he’d kill me.” Wilson cites Kaelin v. Globe Commc’ns Corp.,
162 F.3d 1036 (9th Cir. 1998), for the proposition that Defendants
cannot defeat a claim of actual malice because they can be liable

App. 27
S145 Wilson’s evidence of actual malice at summary
judgment included that Defendants (1) wanted to “de­
stroy [his] reputation and his life,” (2) sought “mone­
tary and journalistic gain,” (3) ignored that Wilson, his
wife, and three other HOA members, warned Gardiner
that Dimovski was either untrustworthy or disliked
Wilson, (4) ignored that Wilson and his wife stated Wil­
son never made any threats to kill, (5) “violated the
model code of journalism,” and (6) failed to obtain a
copy of a Mexican police report before publishing. But,
again, even taken together, these claims do not provide
significant probative evidence for a jury to conclude by
clear and convincing evidence that Defendants enter­
tained a subjective doubt of truth.
H46 Wilson’s claims that Defendants sought to de­
stroy his reputation, publish for monetary gain, and
that Dimovski was untrustworthy or disliked him are
not sufficiently probative because actual malice cannot
solely be established through showings of bad motive
or personal animosity. See Heuisler v. Phx. Newspapers,
Inc., 168 Ariz. 278, 282 (App. 1991). To the extent Wil­
son argues Defendants should have had serious doubts
about the “ ‘threat to kill’ language” because he and his
for the headline alone, irrespective of the body of the article. How­
ever, Wilson does not provide meaningful argument on this issue,
and thus we decline to address it. See Ariz. R. Civ. App. P.
13(a)(7)(A) (requiring “supporting reasons for each contention”);
Ritchie v. Krasner, 221 Ariz. 288, % 62 (App. 2009) (“Opening
briefs must present and address significant arguments, supported
by authority that set forth the appellant’s position on the issue in
question.”); In re J.U., 241 Ariz. 156, f 18 (App. 2016) (We “gen­
erally decline to address issues that are not argued adequately.”).

App. 28
wife denied that he used such language, their uncor­
roborated denials were not enough to raise serious
doubts about the veracity of whether Wilson threat­
ened to kill Dimovski. See Montgomery, 197 F. Supp.
3d at 263 (“[A]ny denial, standing alone, is insufficient
to demonstrate actual malice and survive summary
judgment.”).
^147 Wilson’s claims that Defendants breached jour­
nalistic standards and failed to conduct sufficient re­
search into a Mexican police report similarly fail
because those are not the standards for producing pro­
bative evidence of actual malice. See Scottsdale PubVg,
Inc., 159 Ariz. at 86. Gardiner indicated that he en­
gaged in “careful and thorough news gathering,
whereby [he] spoke with witnesses and reviewed avail­
able documents.” Even if we assume the police report
Wilson offered as evidence was seen by Defendants be­
fore publishing, the report states Wilson “verbally as­
saulted” Dimovski. Furthermore, after this lawsuit
was filed Dimovski submitted a declaration confirming
the statements attributed to him in the article were
accurate, including his statement, “Knowing what I
know now, I think it was a threat to kill me, especially
the fact that he has exposed his position on what he
thinks of weapons. . . .”
U 48 The fact that Defendants published Wilson’s ver­
sion of events and told readers that he denied threat­
ening to harm Dimovski greatly undermines Wilson’s
claim of actual malice. See Tavoulareas, 817 F.2d at
n.44; Biro, 963 F. Supp. 2d at 283; Suchomel, 228
N.E.2d at 176. In the article, Defendants reported that

App. 29
Wilson and his wife claimed Dimovski was lying be­
cause Wilson never threatened to harm Dimovski,
there was conflict between the HOA board and some of
its residents, and that no charges were filed against
Wilson at the HOA’s request.
^149 In sum, the record supports the conclusion that
Wilson has not met his burden of producing significant
probative evidence for a jury to conclude by clear and
convincing evidence that Defendants entertained a
subjective doubt of truth about the article’s statement
that Dimovski said he thought Wilson threatened to
kill him.19
Attorney Fees
?I50 Defendants argue that pursuant to Rule 21,
Ariz. R. Civ. App. R, we should award them attorney
fees on appeal under A.R.S. § 12-349(A)(1), (2), (3).
19 In light of our disposition, Wilson’s claims that the trial
court’s entry of summary judgment denied him a right to a jury
trial necessarily fail. See Cagle v. Carlson, 146 Ariz. 292, 298
(App. 1985) (“[T]he granting of summary judgment does not de­
prive a plaintiff of his constitutional rights to a jury trial because,
in such cases, there are simply no genuine issues of fact for a jury
to consider.”). Wilson’s argument that there was a violation of the
Anti-Abrogation Clause of the Arizona Constitution, see Ariz.
Const art. XVIII, § 6, also fails because a failure of proof does not
abrogate a plaintiff’s right to bring the action and possibly re­
cover damages. Cf State Farm Ins. Cos. v. Premier Manufactured
Sys., Inc., 217 Ariz. 222, f 34 (2007) (no violation of Anti-Abroga­
tion Clause where claimant was not deprived “of the right to bring
the action” or “the possibility of redress for injuries”). Because it
raises the same issues, we need not separately address Wilson’s
argument that the court erred in denying his motion for new trial.

App. 30
However, we conclude Defendants have failed to ade­
quately establish the appeal was brought without sub­
stantial justification under § 12-349(A)(1), which
requires proof that the claim is “groundless and is not
made in good faith.” See § 12-349(F). Nor do we find
the appeal was brought “solely or primarily for delay
or harassment,” § 12-349(A)(2), nor to “[unreasonably
expand[] or delay[] the proceeding” § 12-349(A)(3).
Accordingly, the attorney fees request is denied.20 How­
ever, as prevailing party, Defendants are entitled to
their costs on appeal upon compliance with Rule 21.
Disposition
H51 For the foregoing reasons, we affirm the trial
court’s grant of summary judgment in favor of Defend­
ants.

20 See Fisher v. Nat’l Gen. Ins. Co., 192 Ariz. 366, ft 13 (App.
1998) (acknowledging preponderance of evidence standard for
award under § 12-349).

App. 31
ARIZONA SUPERIOR
COURT, PIMA COUNTY

CASE NO. C20192032

HON. BRENDEN J GRIFFIN DATE:
February 19, 2020
BOBBY WILSON
Plaintiff
VS.
PHOENIX NEWSPAPERS, INC.,
GANNETT COMPANY, INC., and
HUGO PUBLISHING CO., INC.
Defendants
RULING
IN CHAMBERS RE PLAINTIFF’S MOTION FOR
NEW TRIAL (DENIED)
On January 21, 2020, Plaintiff filed a Motion for
New Trial. Briefing on this matter has been completed
which the Court has reviewed in its entirety.
IT IS ORDERED that Plaintiff’s Rule 59 Motion
for New Trial is denied and the Judgment entered in
this matter on January 10, 2020 is affirmed.
No further matters remain pending; therefore,
this Ruling is entered under Rule 54(c), Ariz. R. Civ. P.
/s/ Brenden J. Griffin
HON. BRENDEN J. GRIFFIN

(ID: 4c426a8b-4211-41ac-ada6262b29d38aal)

App. 32
cc: Daniel A. Arellano, Esq.
David J. Bodney, Esq.
Bobby Wilson
A. S.
Judicial Administrative Assistant

App. 33
David J. Bodney (006065) PAN #81919
email: bodneyd@ballardspahr.com
Daniel A. Arellano (032304) PAN #91106
email: arellanod@ballardspahr.com
BALLARD SPAHR LLP
1 East Washington Street, Suite 2300
Phoenix, AZ 85004-2555
Telephone: 602.798.5400 Facsimile: 602.798.5595
Attorneys for Defendants
ARIZONA SUPERIOR COURT
PIMA COUNTY
BOBBY WILSON,
Plaintiff,
vs.
PHOENIX NEWSPAPERS,
INC., GANNETT COMPANY,
INC., HUGO PUBLISHING
CO., INC., et al.,
Defendants.

NO. C20192032
JUDGMENT
(Filed Jan. 10, 2020)
As Amended by the
Court
(Assigned to the
Hon. Brenden Griffin)

The Court, having considered Defendants’ Motion
for Summary Judgment and Plaintiff’s Motion to
Strike Defendants’ Exhibits, Counter-Motion for Sum­
mary Judgments [sic] and Request for Rule 56(h) Sanc­
tions, and having heard oral argument on these
matters on December 2, 2019, rules as follows:
IT IS THEREFORE ORDERED:
1.

Defendants’ Motion for Summary Judgment
is GRANTED.

App. 34
2.

Plaintiff’s Counter-Motion for Summary
Judgments is DENIED.

3.

Plaintiff’s Motion to Strike Defendants’ Ex­
hibits is DENIED.

4.

Plaintiff’s Request for Rule 56(h) Sanctions is
DENIED.

IT IS FURTHER ORDERED that, there being
no further matters that remain pending, final judg­
ment is hereby entered under Arizona Rule of Civil
Procedure 54(c).
DATED this 10th day of January, 2020.
/s/ Brenden J. Griffin
HON. BRENDEN J. GRIFFIN
(ID: 4c426a8b-4211-41ac-ada6262b29d38aal)
COURT NOTICE
RULE 5(a)(2)(A) ARCP REQUIRES THE
ORIGINAL LODGING PARTY SERVE A
COPY OF THIS SIGNED JUDGMENT ON
ALL PARTIES TO THIS CASE

App. 35
[SEAL]
Supreme Court
STATE OF ARIZONA
i

j

ROBERT BRUTINEL

TRACIE K. LINDEMAN

Chief Justice

Clerk of the Court

ARIZONA STATE COURTS BUILDING
1501 WEST WASHINGTON STREET, SUITE 402
PHOENLX, ARIZONA 85007
TELEPHONE: (602) 452-3396

June 30, 2021
RE: BOBBY WILSON v PHOENIX NEWSPA­
PERS INC et al
Arizona Supreme Court No. CV-21-0066-PR
Court of Appeals, Division Two No. 2 CA-CV 200047
Pima County Superior Court No. C20192032
GREETINGS:
The following action was taken by the Supreme Court
of the State of Arizona on June 30, 2021, in regard to
the above-referenced cause:
ORDERED: Petition for Review = DENIED.
Trade K. Lindeman, Clerk
TO:
Bobby Wilson
David Jeremy Bodney
Daniel A Arellano
Jeffrey P Handler
kj

\

Additional material
from this filing is
available in the
f

4

I

Clerk's Office.

